   32 years after vanishing,
   'dead' man pleads guilty
           Chicago commodities broker left debts, family for 'fresh start' in Vegas




LAS VEGAS — A former Chicago commodities
broker who disappeared for 32 years, abandoning his
wife and three children for a new life working in a Las
Vegas casino, has pleaded guilty to felony identify
fraud on Monday.

Under the plea deal, Arthur Gerald Jones, now 73,
was expected to be placed on probation for three
years and pay $70,000 restitution to the Social
Security Administration and to a man whose name
Jones had used, the Chicago Tribune reported
Monday.

Jones was found working as a sports book writer at
the Rampart Casino in the upscale Las Vegas neighborhood of Summerlin, a job he had
held for a decade, the Nevada Department of Motor Vehicles said.

The DMV said Jones disappeared over three decades ago from Highland Park, Ill.
Police believed he may have been a victim of foul play, citing gambling debts and
possible links to organized crime. He was later declared dead.

But after Jones resurfaced, a DMV investigator concluded that he had "voluntarily left
his family and friends in 1979, possibly fleeing the mob" to start a new life, an affidavit
by investigator Doug Staubs said.
Jones, who once held a seat on the Chicago Board of Trade, told authorities that
following a trading mistake, he had been forced to sell his seat to pay his debt. He then
decided to leave his family, citing a troubled marriage, unemployment, and a desire for
a "fresh start", the affidavit showed.

But his former wife gave a different story, telling authorities he sold his seat to pay
personal gambling debts. She said he once bet $30,000 on a basketball game and at
one point took out a second mortgage to pay gambling debts, the affidavit said.

She said he appeared nervous the day he disappeared.

Jones, who was found living under the name Joseph Richard Sandelli, was declared
dead in 1986, and his wife and three children collected Social Security benefits worth
$47,000 as a result.

Jones might have gotten away with his vanishing act had the real Joseph Richard
Sandelli not complained to the Social Security Administration that his statements
showed income from Las Vegas casinos where he had never worked.

That triggered an investigation and Jones was arrested last July on four felony charges
related to identity theft and fraud.

The DMV said he claimed to have purchased a false Illinois driver's license, birth
certificate and Social Security card for $800 before slipping out of Chicago for Florida.
He spent time in California before settling in Las Vegas in 1988.

Jones later used those documents to obtain a Nevada driver's license, the DMV said.
DMV spokesman Kevin Murphy said Jones appeared to have posted $20,000 bail and
was released from custody.

Source: http://www.msnbc.msn.com/id/44671867/ns/us_news-crime_and_courts/
